<html>
<title> - THREAT POSED BY ELECTROMAGNETIC PULSE (EMP) ATTACK</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-156]

 
           THREAT POSED BY ELECTROMAGNETIC PULSE (EMP) ATTACK

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 10, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
45-133                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, July 10, 2008, Threat Posed by Electromagnetic Pulse 
  (EMP) Attack...................................................     1

Appendix:

Thursday, July 10, 2008..........................................    31
                              ----------                              

                        THURSDAY, JULY 10, 2008
           THREAT POSED BY ELECTROMAGNETIC PULSE (EMP) ATTACK
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Graham, Dr. William R., Chair, Commission to Assess the Threat to 
  the United States from Electromagnetic Pulse (EMP) Attack......     2

                                APPENDIX

Prepared Statements:

    Graham, Dr. William R........................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
           THREAT POSED BY ELECTROMAGNETIC PULSE (EMP) ATTACK

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, July 10, 2008.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Our committee meets today to 
receive testimony on the threat of an electromagnetic pulse, 
EMP, attack.
    I want to welcome our distinguished witness, Dr. William 
Graham--Dr. Graham, if you would assume the witness chair, we 
would appreciate it--the chairman of this commission that has 
been assessing this threat.
    We look forward to your testimony.
    The potential damage that could be caused by an EMP attack 
on our country is significant, and our committee has long 
treated this matter seriously. It was this committee that 
pushed for the authorization of the Commission to Assess the 
Threat to the United States from EMP Attack as part of the 
National Defense Authorization Act for 2001. And the committee 
was pivotal in the re-establishment of the commission in the 
National Defense Authorization Act for Fiscal Year 2006.
    My colleague, Mr. Bartlett, ranking member of the Seapower 
and Expeditionary Forces Subcommittee, deserves special credit 
for his dogged and determined attention to this issue.
    Our committee held a hearing on this issue in July of 2004, 
following the release of the commission's executive report, 
with the commission expected to submit a final report on 
November the 30th of this year. We thought it was timely to go 
ahead and have a hearing at this time.
    I want the record to note that we invited the Department of 
Defense (DOD) to testify today. That offer was declined. The 
Department indicated that an assessment of the EMP threat will 
be provided to the commission by the Department of Defense 
later this month. And the Department of Defense prefers to 
discuss the threat following the release of that threat 
assessment. I am disappointed we couldn't have them here today, 
but I understand their reservations. Our committee will work to 
arrange a forum for the Department of Defense to present its 
views.
    With that, I am certainly interested to hear your 
testimony, Dr. Graham.
    And before we begin, Mr. Hunter, ranking member of 
California.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for having 
this hearing.
    And I want to commend, also, Roscoe Bartlett for being the 
father of EMP on this committee and focusing us on this 
committee. And I think the statement that the committee heard 
from the EMP Commission some four years ago in its first report 
was descriptive of the difficulty and the challenge that EMP 
poses. And the report concluded that, and I quote, ``EMP is one 
of a small number of threats that can hold our society at risk 
of catastrophic consequences''--obviously, the ability to 
impose a great deal of paralysis, both in the economic and 
security sectors.
    So, Mr. Chairman, like you, I am very interested in hearing 
from the panel. And I want to congratulate Roscoe Bartlett for 
his enormous dedication to this very important issue. And I 
look forward to the panel's testimony and our questions after.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hunter.
    We will proceed, Dr. Graham. And we, again, appreciate your 
hard work on this commission, and we look forward to your 
testimony today.
    It has been suggested--Dr. Graham, excuse me just a 
minute--that, as Duncan mentioned, the father of this 
commission and this issue have a word.
    Roscoe Bartlett.
    Mr. Bartlett. Oh, thank you very much. I will take just a 
moment, because I have a series of questions which I hope will 
put on the record the real threat that we face here.
    Electromagnetic pulse is kind of a spooky kind of thing. 
And, obviously, there is not very much interest in it, that the 
seats are largely vacant here, and there are a number of seats 
down there vacant. The level of interest does not reflect, in 
any way, the seriousness of this threat, and I hope that that 
will be apparent by the time this hearing is over.
    Thank you.
    The Chairman. With that, Dr. Graham, please proceed.

STATEMENT OF DR. WILLIAM R. GRAHAM, CHAIR, COMMISSION TO ASSESS 
  THE THREAT TO THE UNITED STATES FROM ELECTROMAGNETIC PULSE 
                          (EMP) ATTACK

    Dr. Graham. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify today on behalf of the 
Commission to Assess the Threat to the United States from 
Electromagnetic Pulse Attack, a commission established through 
the initiative of this committee and strongly supported by your 
members.
    In accord with the commission's mandate, we are nine 
members, seven of whom were appointed by the Secretary of 
Defense and two of whom were appointed by the director of the 
Federal Emergency Management Agency. In selecting individuals 
for appointment to the commission, the appointing officials 
were directed to consult with the chairman and ranking minority 
members of the Committees on Armed Services of the Senate and 
the House of Representatives. So we have your personal 
scrutiny, as well.
    Let me introduce the other members of the commission, who 
are here today.
    The Chairman. Can you get a little bit closer to the 
microphone, please?
    Dr. Graham. Sure.
    The Chairman. That would help.
    Dr. Graham. There.
    The Chairman. Thanks, Doctor.
    Dr. Graham. Let me introduce the other members of the 
commission who are here today.
    On my left, starting with General Richard Lawson, a four-
star general, retired, from the United States Air Force.
    Next to him is Dr. Gordon Soper, a former member of the 
Defense Nuclear Agency and other nuclear-related functions in 
the government.
    After him is Dr. John Foster, former director of the 
Livermore National Laboratory and former director of defense 
research and engineering in the Pentagon, among other 
distinguished jobs he has held.
    And next to him is Dr. Robert Hermann, a former director of 
the National Reconnaissance Office and long-time associate of 
the intelligence community.
    With your permission, I would like to summarize my prepared 
statement and submit the full written statement for the record.
    An executive report produced by the EMP Commission and 
delivered to Congress in 2004 provided an overview of the EMP 
threat to the U.S., our friends and allies, and our deployed 
forces. Part of the purpose of my testimony today is to 
introduce a new report produced by the EMP Commission.
    This report presents the results of the commission's 
assessment of an EMP attack to our critical national 
infrastructures, sometimes referred to as ``civilian 
infrastructures,'' but since they are as important to our 
military capabilities and our national security as they are to 
our civilian economy and citizenship, we chose to call it 
``critical national infrastructures.''
    And our report provides recommendations for preparations, 
monitoring, protection and recovery from such an EMP attack. 
The assessment is informed by analytic and test activities 
executed under the commission's sponsorship, which are 
discussed in the report.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Dr. Graham. Several potential adversaries have, and more 
can, acquire the capability to attack the United States with a 
high-altitude, nuclear-weapon-generated electromagnetic pulse. 
A determined adversary can achieve an EMP attack capability 
without having a high level of sophistication.
    EMP is one of a small number of threats that can hold our 
society at risk of catastrophic consequences. A well-
coordinated and widespread cyber attack is another potential 
example.
    EMP will cover a wide geographic region within line of 
sight of a high-altitude nuclear detonation. The EMP has the 
capability to produce significant damage to our critical 
infrastructures and, thus, to the very fabric of U.S. society, 
as well the ability of the United States, our friends and our 
allies to project and influence, with military power and other 
means.
    The common element that can produce such an impact from EMP 
is primarily electronics in the infrastructure, so pervasive in 
all aspects of our society and military. Our vulnerability is 
increasing daily, as our use and dependence on electronics and 
automated systems continues to grow. The impact of EMP is 
asymmetric, in relation to potential adversaries, who are not 
as dependent on modern electronics as we are. Much of the 
efficiency of our society is generated through our use of 
electronics and automated systems, and that is also a potential 
vulnerability.
    The current vulnerability of our critical infrastructures 
can both invite and reward attack, if not corrected. Correction 
is feasible and well within the national means and resources to 
accomplish over the next few years. As detailed in the 
commission report provided today to the Congress, the Nation's 
vulnerability to EMP can be reasonably reduced by coordinated 
and focused efforts between the private and public sectors of 
our country.
    The appropriate response to the EMP threat is a balance of 
prevention, planning, training, maintaining situational 
awareness, protection and preparations for recovery, and doing 
those in coordination with other potential large-scale threats, 
such as the cyber threat, and even large-scale man-made 
threats, such as geomagnetic storms.
    In so doing, the U.S. will reduce the incentives for 
adversaries to conduct such an attack on our homeland, our 
friends and allies, and our forces deployed abroad. The cost of 
such improved security in the next three to five years is 
modest by any standard and extremely so, in relation to both 
the war on terror and the value of the national infrastructures 
at risk today.
    Although EMP was first considered during the Cold War as a 
means of paralyzing U.S. retaliatory forces and thereby 
eliminating our strategic deterrent, the risk of an EMP attack 
today may be even greater, since several potential adversaries 
seek nuclear weapons, ballistic missiles, and asymmetric ways 
to overcome U.S. conventional superiority, using one or a small 
number of nuclear weapons.
    A high-altitude electromagnetic pulse results from the 
detonation of a nuclear warhead at altitudes above about 25 
miles over the country or over our forces. The immediate effect 
of EMP would be the disruption of and damage to the electronic 
systems and electrical infrastructure. This, in turn, can 
seriously impact important aspects of our whole national life, 
including telecommunications, the financial system, government 
services, the means of getting food, water, medical care, trade 
and production, as well as electrical power itself.
    Given our Armed Forces' reliance on critical national 
infrastructures, the cascading failures could seriously 
jeopardize our military's ability to execute its mission in 
support of national security. Projection of military power from 
air bases and seaports requires electricity, fuel, food and 
water. And the coordination of military operations depends on 
telecommunications and information systems that are so 
indispensable to society as a whole. Within the U.S., these 
assets are, in most cases, obtained by the military from our 
critical national infrastructures and from civilian providers.
    Several potential adversaries have the capability to attack 
the United States with high-altitude, nuclear-weapon-generated 
EMP, and others appear to be pursuing efforts to obtain that 
capability. Long-range ballistic missiles and a high level of 
technical sophistication are not prerequisites.
    For example, such an attack could be launched from a 
freighter off the U.S. coast, using a short- or medium-range 
ballistic missile to loft a nuclear warhead to a high altitude, 
and would not require accuracy in the placement of that 
warhead. Terrorists sponsored by a rogue state could attempt to 
execute such an attack, potentially without revealing the 
identity of their sponsors and even themselves.
    Iran has practiced launching a mobile ballistic missile 
from a vessel in the Caspian Sea. Iran has also tested high-
altitude explosions of its Shahab-III ballistic missile, a test 
mode consistent with EMP attack, and described the test as 
successful. And, just recently, Iran has tested a series of 
ballistic missiles, including what it described as a new 
longer-range variant of the Shahab-III.
    Iranian military writings explicitly discuss a nuclear EMP 
attack that would gravely harm the United States. While the 
commission does not know the intention of Iran in conducting 
these activities, we are disturbed by the capability that 
emerges when we connect all of these dots. In fact, I don't 
have another explanation for the high-altitude detonation of 
the Shahab-III and some of the Iranian tests or the launch off 
the Caspian Sea, other than to deploy an EMP type of attack.
    Relatively low-yield, unsophisticated nuclear weapons can 
be employed to generate potentially catastrophic EMP effects 
over wide geographic areas. And designs for variances of such 
weapons, as well as more sophisticated weapons, appear to have 
been illicitly trafficked for a quarter-century at least.
    Recently, it has been reported in the press that United 
Nations investigators found that the design for an advanced 
nuclear weapon able to fit on ballistic missiles currently in 
the inventory of Iran, North Korea, and other potentially 
hostile states was in the possession of Swiss nationals 
affiliated with the AQ Khan nuclear proliferation network. This 
suggested nuclear weapons designs may already be in the 
possession of hostile states that sponsor terrorism. It also 
suggests that it would be a mistake to judge the status and 
sophistication of nuclear weapon programs based solely on the 
indigenous national capabilities, since outside assistance from 
proliferators is probably the norm.
    EMP effects from nuclear bursts are not new threats to our 
Nation. What is different now is that some potential sources of 
EMP threats are difficult to deter. They may be may rogue 
regimes or terrorist groups that have no state identity. They 
may have only one or a few nuclear weapons and be motivated to 
attack the U.S. without regard for their own safety.
    China and Russia have considered limited nuclear attack 
option that, unlike their Cold War plans, employ EMP as the 
primary or sole means of attack. Indeed, in May 1999, during 
the NATO bombing of the former Yugoslavia, high-ranking members 
of the Russian Duma, meeting with the U.S. congressional 
delegation to discuss the Balkans conflict, raised the specter 
of a Russian EMP attack that would paralyze the United States.
    As recently as two weeks ago, Assistant Secretary of 
Defense for Asian and Pacific Security Affairs James J. Shinn 
testified before this committee that China's military is 
working on exotic electromagnetic pulse weapons that can 
devastate electronic systems by using a burst of energy similar 
to that produced by a nuclear blast.
    Another key difference from the past is that the U.S. has 
developed, more than most nations, as a modern society heavily 
dependent on electrical power, electronics, telecommunications, 
information networks, and an extensive set of financial and 
transportation systems that leverage modern technology. This 
asymmetry is a source of substantial economic, industrial, 
societal, and military advantage for the U.S., but the critical 
interdependencies and normally reliable operation of the 
infrastructures creates potential vulnerabilities, if multiple 
simultaneous disruptions and failures can be made to occur, 
since they almost never occur under normal operations of these 
infrastructures.
    Therefore, terrorists or state actors that possess one or a 
few relatively unsophisticated nuclear-armed missiles may well 
calculate that instead of, or in addition to, destroying a city 
or a military base, they could obtain the greatest economic-
political-military utility from conducting an EMP attack, while 
experiencing the lowest risk of being intercepted or otherwise 
stopped before they are able to detonate the weapon.
    The commission has offered a series of recommendations 
intended to reduce the risk and consequences of an EMP attack. 
These include pursuing intelligence, interdiction, and 
deterrence, to discourage an EMP attack; protecting critical 
components of the infrastructure, especially those requiring 
long periods of time to replace. In particular, the U.S. 
military needs to determine what elements of the national 
infrastructure are critical to its continued operations and how 
to either protect or circumvent failures of that 
infrastructure.
    Next would be maintaining the capability to monitor and 
evaluate the condition of the critical infrastructures; then, 
recognizing how an EMP attack differs from other forms of 
infrastructure disruption and damage, since its effects would 
not occur under normal operation of our generally reliable 
infrastructure systems.
    Planning to carry out a systematic recovery of critical 
infrastructures would be very important; and that is a planning 
function. That is not a hugely expensive undertaking, but it is 
one that requires thought and effort and time; then, training, 
evaluating, red-teaming, and periodically reporting to you and 
other Members of Congress of the status of the country in being 
able to respond to an EMP attack.
    Defining the government's responsibility to act, because, 
surely, the defense of the country is a shared responsibility 
between the government and the private sector; but defending 
the country is primarily a government responsibility, and 
providing a normally reliable infrastructure is largely a 
private sector responsibility.
    Recognizing the opportunity for shared benefits in dealing 
with other forms of widespread attack, such as I had mentioned, 
cyber attack or naturally occurring events. Probably something 
about the size of Katrina would be the smallest size that we 
are considering here.
    And, finally, conducting research to better understand the 
infrastructure systems' vulnerability to EMP and other threats 
and developing cost-effective solutions for mitigating them.
    Finally, allow me to give you a preview of the EMP 
Commission's findings, to date, for its next report, which you 
have directed us to provide and due to the Congress in 
November, which will assess the progress being made to protect 
the Nation and, particularly, our military capabilities from 
EMP attack. The commission is receiving cooperation from a 
number of federal agencies and working closely with them to 
derive that information.
    While measures to establish a balance of prevention, 
planning, training, situational awareness, protection, and 
preparations will require a sustained effort, the commission 
wishes to note an increased focus within the Defense Department 
since it received the commission's earlier reports and with 
your continued interest. Our report to the Congress, due in 
November, will address this in more detail, as part of our 
required assessment of the DOD's progress in implementing the 
steps necessary to mitigate the attack.
    The United States faces a long-term challenge to maintain 
technical competence for understanding and managing the effects 
of nuclear weapons, including EMP. The Department of Energy and 
the National Nuclear Security Administration have developed and 
implemented an extensive nuclear weapons stockpile stewardship 
program over the last decade. However, no such comparable 
effort was initiated to understand the effects that nuclear 
weapons produce on modern systems.
    The commission reviewed current national capabilities to 
understand and to manage the effects of EMP and concluded that 
the Federal Government does not today have sufficient human and 
physical resources and assets for reliably assessing and 
managing EMP threats. And the U.S. is rapidly losing the 
remaining technical competence and facilities that it needs in 
government, in the national laboratories, and in the industrial 
community.
    EMP attack on the critical infrastructures is a serious 
problem, but one that can be managed at reasonable cost. A 
serious national commitment to address the threat of an EMP 
attack can lead to an integrated national posture that would 
significantly reduce the payoff for such an attack and allow 
the United States to recover from EMP and from other threats, 
man-made and natural, to the critical national infrastructures.
    A failure to do so will not only leave the critical 
national infrastructures that are necessary for our society to 
function at risk, but will also place our ability to conduct 
military operations in severe jeopardy.
    This concludes my prepared statement, Mr. Chairman. Thank 
you again. And I look forward to an opportunity for myself and 
my colleagues and fellow commissioners to respond to your 
questions.
    [The prepared statement of Dr. Graham can be found in the 
Appendix on page 35.]
    Mr. Spratt [presiding]. Dr. Graham, thank you very much 
indeed.
    You have a distinguished panel of colleagues sitting behind 
you, and I will take the liberty of presiding at this point and 
invite any one of them who would like to add to your comments 
to take this opportunity to do so.
    Dr. Foster.
    Mr. Foster. No, thank you, sir.
    Mr. Spratt. I didn't want to get this distinguished panel 
here and not at least give you the opportunity to say something 
further, if you wish.
    Dr. Graham. Mr. Henry Kluepfel has joined us, too, as 
another commissioner sitting there. I didn't introduce him 
initially, but I would like do that now. Extensive background 
in telecommunications.
    Mr. Spratt. I want to turn now to Mr. Bartlett, because he 
is the person who requested this hearing and the reason that we 
are meeting here today.
    And, Roscoe, the floor is yours to ask questions as you see 
fit.
    Mr. Bartlett. Thank you very much.
    I was sitting in that hotel room in Vienna, Austria, with a 
number of other Members of Congress and three members of the 
Russian government--Vladimir Lukin, who was the ambassador here 
at the end of Bush I and the beginning of the Clinton 
Administration; Alexander Shabanov, who I think was the third-
ranking communist; and Vladimir Rushkov, a young, aspiring 
Russian.
    Vladimir Lukin was very angry, and he sat with his arms 
folded, looking at the ceiling, for a couple of days during 
these discussions. We developed a framework agreement, which, 
about a half a dozen days later, was adopted by the G-8 and 
ended the Kosovo controversy.
    At one point, Vladimir Lukin looked up. He said, ``If we 
really wanted to hurt you, with no fear of retaliation, we 
would launch an SLBM [submarine-launched ballistic missile] 
from the ocean, detonate a nuclear weapon high above your 
country, and shut down your power grid and your communications 
for six months or so.'' And Alexander Shabanov, the handsome, 
blond communist, smiled and said, ``And if one weapon wouldn't 
do it, we have some spares, like about 10,000, I think.'' This 
kind of puts in context the threat that we face.
    I read a prepublication copy of a book called One Second 
After. I hope it does get published; I think the American 
people need to read it. It was the story of a ballistic missile 
EMP attack on our country. The weapon was launched from a ship 
off our shore, and then the ship was sunk so that there were no 
fingerprints. The weapon was launched about 300 miles high over 
Nebraska, and it shut down our infrastructure countrywide.
    The story runs for a year. It is set in the hills of North 
Carolina. At the end of the year, 90 percent of our population 
is dead; there are 25,000 people only still alive in New York 
City. The communities in the hills of North Carolina are more 
lucky: only 80 percent of their population is dead at the end 
of a year.
    I understand that this is a realistic assessment of what a 
really robust EMP laydown could do to our country?
    Dr. Graham. We think that is in the correct range. We don't 
have experience with losing the infrastructure in a country 
with 300 million people, most of whom don't live in a way that 
provides for their own food and other needs. We can go back to 
an era when people did live like that. That would be--10 
percent would be 30 million people, and that is probably the 
range where we could survive as a basically rural economy.
    Mr. Bartlett. It is my understanding that, in interviewing 
some Russian generals, that they told you that the Soviets had 
developed a ``super-EMP'' enhanced weapon that could produce 
200 kilovolts per meter at the center?
    Dr. Graham. Yes, Mr. Bartlett. We engaged two senior 
Russian generals--who were also lecturers and authors from 
their general staff academy, who had written about advanced 
weapons--and actually brought them over to the U.S. and spent a 
day meeting with them and questioning them about EMP-type 
weapons; and they said a number of interesting things. One was 
that, in fact, the Russians had developed what they called the 
``super-EMP'' weapon that could generate fields in the range of 
200 kilovolts per meter. And we had seen in other open 
literature that the Russians appeared to be using that figure 
as an upper bound for the kind of EMP that could be produced by 
nuclear weapons. So, we weren't surprised, too surprised, to 
see it.
    They also told us that both there were Russian and other 
technologists, engineers and scientists, who were working with 
North Korea and receiving Western wages, they emphasized, 
helping North Korea with the design of its nuclear weapons.
    So, we found it extremely interesting in talking to them.
    Mr. Bartlett. This is about, what, four times higher than 
anything that we ever built or tested to, in terms of EMP 
hardening?
    Dr. Graham. Yes.
    Mr. Bartlett. Which means that, even if you were some 
hundreds of miles away from that, that it would be somewhere in 
the range of 50 to 100 kilovolts per meter at the margins of 
our country, for instance?
    Dr. Graham. Yes. Over much of the margin, yes.
    Mr. Bartlett. So, we aren't sure that much of our military 
would still be operable after that robust laydown. Is that 
correct?
    Dr. Graham. We just don't have test data to tell us one way 
or the other.
    Mr. Bartlett. I also understand that we aren't certain that 
we could launch, through a series of robust EMP laydowns, that 
we could launch our intercontinental ballistic missiles.
    Dr. Graham. We designed both the missiles and their bases 
and the strategic communication systems during the Cold War to 
be able to survive and operate through EMP fields on the order 
of 50 kilovolts per meter, which was our concern at the time, 
before we realized that weapons could be designed that had 
larger EMP fields.
    We added margin to the protection of those systems. And to 
the extent that they have maintained that hardness, they would 
survive greater than 50 kilovolts per meter, but I don't think 
we have any data telling us how much greater.
    Mr. Bartlett. I would just like to spend a moment looking 
at the national infrastructure of our country. It is my 
understanding that a robust laydown, likely to be produced by a 
single weapon of 200 kilovolts per meter that made it 300 miles 
high over Iowa or Nebraska, would probably shut down all of our 
national infrastructure. There would be no electricity. That 
Supervisory Control and Data Acquisition (SCADA) units in our 
sub-stations and so forth would all be gone. The large 
transformers would be destroyed. And we don't make those; it 
would take a year and a half or so to buy them from somebody 
overseas who makes them.
    We would then be in a world, it is my understanding, where 
the only person you could talk to is the person next to you, 
unless you happen to be a ham operator with a vacuum tube set, 
which is a million times less susceptible. And the only way you 
could go anywhere is to walk, unless you happened to have a car 
that had coil-end distributor and you could get some gasoline 
to put in it.
    Is that a pretty accurate description of the world we would 
be in?
    Dr. Graham. We did conduct tests of SCADAs, automobiles, 
and other systems. And while, as a commission, we don't have 
either the funds or the staff that would be needed to do a 
comprehensive test of those, all of the data we did obtain 
indicate that your description is accurate.
    Mr. Bartlett. Your initial report came out about four years 
ago. We have had four years in which we could have been doing 
something to protect--I am very concerned that we don't have 
the equivalent of an insurance policy. It is unlikely my home 
will burn, but I would not sleep well tonight if it did not 
have an insurance policy. I don't hire somebody to stand there 
watching for a fire, to yell, ``Fire, fire,'' but I do have an 
insurance policy. That is what I would like my Nation to have 
for an EMP protection.
    We don't have anything near that, do we?
    Dr. Graham. No, we don't.
    The commission has been trying for over a year, through 
working with the Department of Homeland Security and the 
Homeland Security Council staff in the White House, to look at 
the 15 canonical scenarios they have defined as potential 
terrorist threats to the U.S., which included a nuclear weapon; 
but it is a nuclear weapon going off at ground level in a city, 
to either add to that as another category of nuclear weapon 
attack or add a 16th scenario of a high-altitude EMP attack. 
But as yet, we have been unable to obtain their cooperation in 
adding that threat to the homeland security threat list.
    Mr. Bartlett. I would just like to end by re-emphasizing 
what you emphasized in your testimony. A terrorist group, not 
even a nation group, but a terrorist group with a tramp steamer 
and a Scud launcher and a crude nuclear weapon, and if they 
miss by 100 miles, it doesn't matter, does it?
    Dr. Graham. No.
    Mr. Bartlett. And they could launch that weapon and shut 
down, what, all of New England?
    Dr. Graham. Yes, probably with a Scud-B they could cover 
essentially all of the East Coast or all of the West Coast. And 
the coasts tend to be where most of the population is.
    Mr. Bartlett. Which would be Katrina how many times over?
    Dr. Graham. Oh, several times over.
    Mr. Bartlett. At least an order of magnitude.
    Dr. Graham. Something on that size, yes.
    Mr. Bartlett. The average city has a three-day supply of 
food?
    Dr. Graham. I think that is about what we estimated.
    Mr. Bartlett. Okay.
    Well, I want to thank you very much.
    I am very appreciative, Mr. Chairman, that you set up this 
hearing.
    I think that, as the testimony indicated, I think this is 
the most asymmetric attack that could occur in our country. Am 
I wrong in that? Can you think of any more asymmetric attack on 
our country?
    Dr. Graham. I think there are very few that go with this. 
One, as I mentioned, was a cyber attack, possibly a very 
widespread and contagious biological attack. But this is one of 
a very small set and very asymmetric.
    Mr. Bartlett. Doesn't our very vulnerability invite this 
kind of an attack?
    Dr. Graham. Yes, Mr. Bartlett. That is our primary concern, 
that if the country does nothing about it, we are essentially 
advertising to a world which already has a good understanding 
of the implications of EMP and has written about it 
extensively. Not just from the U.S., but in our survey of 
potentially hostile countries, they talk about this extensively 
in the open literature, and did before the commission was even 
established. And it is a very asymmetric situation that we 
could face.
    Mr. Bartlett. I have been told that I shouldn't be talking 
about this because it gives our adversaries ideas. They already 
know about this, correct?
    Dr. Graham. They knew about it before the commission was 
ever established. And that was the first thing we checked. We 
said, ``How much can we say without giving away information 
that isn't available to our adversaries''? And when we reviewed 
the literature, why, we found there was an extensive knowledge 
of EMP and its effects widespread.
    Mr. Bartlett. Why is there so little interest on the part 
of our leadership to do something about this? Is it just too 
hard? They just don't want to face it?
    Dr. Graham. That is a good question. It might be better to 
ask a sociologist than an engineer and physicist that question.
    But it falls into the category of a problem which hasn't 
happened yet. Certainly, our ability to predict very unusual 
and significant events, whether it is Pearl Harbor, the start 
of the Korean War, 9/11 and whatever--we have, to paraphrase 
Winston Churchill, much to be humble about in our ability to 
predict these events before they happen. Of course, once they 
happen, then there tends to be a massive response. But somehow 
it is just not within our character and our society to look for 
these events before they occur.
    Mr. Bartlett. Thank you very much, Mr. Chairman, for 
setting up this hearing--and I look forward to the additional 
questions and responses. Thank you.
    The Chairman [presiding]. Mr. Solomon Ortiz, please.
    Mr. Ortiz. Thank you so much for your testimony.
    This is really--it is scary. Sometimes we think that this 
is something that might never happen, but I agree with what my 
good friend, Mr. Roscoe Bartlett, asked. We would feel a lot 
better if we had some type of insurance or some type of shield 
that would protect us from dismantling all the equipment that 
we have.
    But based on increasing dependence on advanced electronic 
systems, have you, has the Department of Defense and Department 
of Homeland Security adequately addressed or implemented any of 
the EMP Commission's, the previous recommendations to protect 
the United States from attack?
    Dr. Graham. Mr. Ortiz, the Department of Defense has begun 
a process to address that.
    About two years ago, in response to the mandate of the 
first legislation establishing the commission, the Secretary of 
Defense issued a directive to the Department with a series of 
actions he wanted to see carried out to address EMP. And the 
Department of Defense has started working down that list.
    I would characterize them today as in the planning stage, 
trying to identify what their requirements are, what the issues 
they have to address are, and trying to set up some kind of an 
organizational structure to address them.
    So, the DOD is early in the process, and I would say that 
the other parts of the government have not yet begun any 
process.
    Mr. Ortiz. And I know we are looking at what might happen 
to us if they detonate a missile over the United States. But on 
the other side, what can we do to defend ourselves? From what I 
hear, I don't think we have anything to defend ourselves. Am I 
correct when I say that?
    Dr. Graham. No, I think there are several things we can do.
    Mr. Ortiz. That is what I would like to hear.
    Dr. Graham. I think the first thing is to recognize the 
problem and let other countries know that we understand what 
might happen and we are taking steps to mitigate that.
    Another step early on would be to identify those parts of 
the infrastructure that are most likely to be damaged and, 
particularly, the ones that are hardest to replace and focus on 
those, to protect them.
    Let me give you an example of that. August 13, 2003, a 
power transmission line got hot enough that it sagged down and 
touched a tree and shorted the ground, and that dropped that 
power transmission line. And for the next hour, 2,000 megawatts 
of generating capacity kept looking for a route to get to the 
north-central part of the United States. And as that power 
switched from one transmission system to another, it kept 
overloading them and dropping them, as well, until finally the 
whole Northeast, with very few exceptions, was blacked out. 
Because the protection circuitry in the power system was 
properly arranged, nothing was damaged in our power system 
during that outage, and within the next two days, the country 
was able to bring back the power to that area.
    The problem with EMP is that protection circuitry itself 
and the protection systems, many of which are based on these 
SCADA computers, would be damaged. They would be damaged 
immediately, and therefore they could not provide proper 
protection immediately and could lead to the damage of other 
parts of the system, including things such as large power 
transformers and switches.
    So, building these small, relatively inexpensive control 
devices, SCADAs, which are changed out every few years, anyway, 
in a way so they won't fail from EMP, and, particularly, won't 
be damaged by EMP, is, in our view, an important step and one 
that we would like to encourage the government and the private 
sector to work together on. And, in fact, the commission has a 
plan to build a demonstration model of a protected SCADA, so 
that we can show people it is not either terribly expensive or 
terribly difficult to do that.
    But recognizing what has happened, since this would be very 
unusual, is a key to our response. It is quite possible that 
the system operators will do more damage to the system after an 
EMP event in trying to recover the system, if they don't know 
what has happened; and it is not expensive to recognize this, 
but we don't have the means to do that today.
    So, there are a whole number of steps that we could carry 
out that would be very effective and not hugely expensive.
    Let me ask my colleagues on the commission if any of them 
have further comments on that.
    Okay.
    Mr. Ortiz. My time is up, so thank you so much for your 
testimony and answering our questions. Thank you, sir.
    Dr. Graham. Thank you.
    The Chairman. Mr. McHugh from New York.
    Mr. McHugh. Thank you, Mr. Chairman.
    Sixteen years on this committee, as I was chatting with Mr. 
Bartlett before--we have been honored by many distinguished 
panelists, and I am being totally serious when I say rarely 
have we been so honored as we are here, this morning, to have 
gathered such a body of distinguished individuals with such a 
great record of service.
    And thank you for taking up such an important issue that no 
one seems to be concerned about. And we certainly are in debt 
to Mr. Bartlett, as others have mentioned, for his leadership 
on this, but you really have really put a fine point to it.
    My friend from Texas, Mr. Ortiz, said it is scary. As you 
read through these pages, you talk about people stuck for long 
periods on elevators, airplanes crashing, no water, no food. 
The difference between this and Stephen King is that Stephen 
King in Borders is in the fiction section; this report is not. 
And I hope, if nothing else comes of it, this helps to focus 
our Nation's attention on the unknown.
    I was very distressed to hear that one of the reasons, 
perhaps, the Department of Homeland Security has not yet 
responded--and I realize it is speculation--but that it is a 
threat unknown to this point. That is the purpose of the 
Department of Homeland Security, it seems to me, to contemplate 
and ultimately to take steps to guard against the 
unexperienced, the unknown, such as 9/11 was to that point. So, 
if that is their mindset, I trust they will begin to rethink it 
very, very quickly.
    As I was reading through, on page 156, you use the phrase 
``graceful degradation.'' I like the term. Can you tell me a 
little bit about what it would mean in its application, with 
respect to protection from EMP?
    Dr. Graham. Yes. We don't envision the country having the 
resources to try to protect everything in the civilian 
infrastructure. It is a massive infrastructure, and, in fact, 
elements of it do fail from time to time. But normally, when 
they fail, it starts at a single-point failure, and the failure 
is contained, and the system is left in a configuration where 
the infrastructure can be re-established, such as it was in 
that August 2003 Northeast blackout or other blackouts we have 
had.
    We think we could properly protect and contain and design 
the infrastructure protection in such a way that, while the 
infrastructure might go down for a limited period of time, it 
wouldn't be so damaged that it couldn't be brought back into 
functionality within the period of time that people can get 
along without it.
    And that is our view of graceful degradation: failing in 
such a way that it is not suffering large, permanent damage 
that can't be replaced within a short period of time, but 
rather, basically, make it so this can be reset and re-
established and brought up in a systematic way.
    Mr. McHugh. I realize the scope of this challenge is, to 
say the least, multifaceted, and there is no one prescriptive 
response. But the concept of graceful degradation, as I was 
reading through, seemed to be both technologically achievable 
and, in a relative sense, pretty affordable. Am I being overly 
optimistic, or would that be a fair judgment?
    Dr. Graham. Well, affordability is like beauty; it tends to 
be in the eye of the beholder. But it seems to us that, 
compared to the cost of the infrastructure or the cost of the 
failure of the infrastructure from EMP, if it were to occur, 
the cost of the analysis, then the planning, then the 
protection of key elements and the testing and exercise and 
maintaining situational awareness, all of those are very modest 
costs.
    Mr. McHugh. Just one final question; I just have a few 
seconds left here. You mentioned you are charged with doing an 
assessment of DOD's steps in this regard. Do you have a time 
frame, a calendar on when that will be achieved?
    Dr. Graham. Yes. Our legislative mandate specifies that we 
deliver to you a report by the end of November of this year. 
And we are well under way working on it now.
    Mr. McHugh. Well, again, gentlemen, thank you so much for 
your service and to Mr. Bartlett for his insight, and look 
forward to your continued efforts.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from South Carolina, Mr. Spratt.
    Mr. Spratt. Dr. Graham, thank you very much and your entire 
panel for the excellent presentation you have made and for the 
work you have done.
    This is truly the all-time asymmetric threat, but it is 
also the all-time esoteric threat. It is not widely understood, 
although it is not beyond the apprehension and the 
comprehension of our most insidious enemies.
    In your work thus far, what can you say about the 
sufficiency of the level of attention amongst our commanders 
and leaders at the national level to this particular threat and 
to what can be done to counter the threat? Is there a 
sufficient level of national awareness?
    Dr. Graham. I would say there are shining points in our 
national leadership's interest, but only a few.
    The Secretary of Defense has directed the Defense 
Department to carry out an orderly program. General Chilton, in 
particular, the commander of the Strategic Command, has taken a 
great deal of interest in this and is working hard on the 
systems under his command and operation to assure that our 
strategic forces will be survivable and effective under EMP.
    I think it is at the bottom of the list, in many areas, 
certainly in the Defense Department, but it is also in the 
Department of Homeland Security, where this has not yet 
received much attention or much thought.
    Mr. Spratt. You have given us a message first of the bad 
news, which is a wake-up call, and then the good news, and that 
is there are remedial steps we can take and, for the most part, 
they are affordable.
    But as you describe the scope and potential of this kind of 
attack, recognizing that it could affect even the 
telecommunications network and the electric power grid in this 
country, the cost, just off the back of an envelope, would seem 
to be enormous to protect all of these devices.
    You can understand how hardening satellites, and in 
particular future-launch satellites, is within our capability 
to afford, but the entire electric grid, the entire 
telecommunications system, all of these things nationwide, 
aren't we talking about some substantial financial commitment?
    Dr. Graham. Well, it would be a large order. There is no 
doubt of that. The work would have the effect of increasing the 
reliability of that infrastructure in the first instance, which 
is a reasonable activity for the providers of the 
infrastructure and something they could ask to put in their 
rate basis.
    To the extent that we are dealing just with the national 
security aspects, that is a government function. But we found 
the cooperation and interest in the cooperation between the 
private sector and with the government to be very good. For 
example, we have worked with the North American Energy 
Reliability Corporation, which tries to increase the 
reliability of the power grid under a number of different 
scenarios, and they are certainly willing to cooperate on this 
with the government. So, if we can arrange for the government 
to contribute to the national security part and the private 
sector infrastructure to contribute to the overall reliability 
part, we think there is a union of effort that can make this 
happen in a less than extremely costly fashion and do it in 
such a way that we actually ramp up the effort based on 
knowledge, rather than try to swamp the problem with funds.
    Mr. Spratt. One last question. From where we sit as Members 
of Congress, as the Armed Services Committee, what can we best 
do to extract this kind of commitment and to see that it is 
followed through in a programmatic way?
    Dr. Graham. I think requesting from the Defense Department 
and the military forces their appraisal of potentially 
vulnerable systems and a description of efforts they are 
undertaking to deal with that, along with their programmatic 
requests for the resources necessary to address and manage 
that, would be a very effective first step.
    I think a continued interest on your part, that you have 
shown in establishing this commission, has had a large effect, 
already, on the activities in the Defense Department. And a 
continued interest either through this commission or some other 
function will continue to keep the pressure on the 
Administration to work this problem.
    Mr. Spratt. Thank you again. And thank you to the entire 
panel for the work you have done. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Franks, please.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Dr. Graham.
    You know, I am reminded, historically, that people such as 
yourselves have been profoundly important to the success of 
this country. I know that Dr. Otto Hahn was playing with the 
atomic bomb scenario in Germany a long time ago. And it turns 
out that one Albert Einstein kind of beat him to the draw, and 
he happened to be on our side, and we can all be very grateful 
for that. So, I appreciate you and all your colleagues. You are 
the invisible frontline of freedom here, and we are very 
grateful to you.
    I happen to have been here on the committee when you 
addressed us some two or three years ago and have been very 
concerned about the EMP situation since then, and appreciate 
Roscoe Bartlett, or Congressman Bartlett, for his leadership in 
this area.
    I wanted to ask you a question related to our national 
security space systems. I am sure General Shelton has had many 
conversations with you about that. Are there things that we can 
do or should do to protect that vital national security asset 
against the EMP capability?
    Dr. Graham. Yes, Mr. Franks. There are things we can do. In 
the first instance, we need to assess the status of the ground 
links of the space systems we have. That is, on the one hand, 
satellites that are at very high orbits--geosynchronous orbits 
or even semisynchronous orbits--are high enough that the 
pumping of the Van Allen Belts by the exoatmospheric nuclear 
explosions won't cause much degradation for those satellites. 
Low-altitude satellites that fly into intense parts of Van 
Allen Belts would probably fail after an exoatmospheric 
explosion within a few days to a week or two, and, in fact, 
that happened after the STARFISH test that we conducted in the 
Pacific in the early 1960's. But all of these satellite 
systems--geosync, semisync, low-altitude--use ground links to 
get their information to the users on the surface, and all of 
those ground facilities would be exposed if they are 
underneath, within line of sight of a high-altitude nuclear 
event.
    And, of course, then we have to trace back from the ground 
site itself to where it gets its power, where it provides its 
telecommunications, what personnel it needs to be operated, and 
so on. So, an assessment can be made of that, and that can lead 
to some useful steps taken to provide for those after high-
altitude nuclear bursts--an EMP event, for example.
    Mr. Franks. Well, thank you.
    I know you mentioned--I think Dr. Bartlett mentioned some 
discussions with Duma representatives, and they said, you know, 
if we had wanted to--the intent here is a very, very important 
consideration for those who have the EMP capability. And my 
concern is--and I don't want to get into anything classified 
here, and you will have to help me to make sure I don't, even 
though I know that you have said that most people already know 
so much more about this than we have already been aware of for 
a long time--but intent is everything. My concern is a nation 
like Iran, with some of their advanced missile capabilities 
that are developing more and more all the time--well, what size 
of a warhead and what heights would be necessary for, say, 
someone like Iran? Are they approaching that capability in 
terms of their missile capability? And would a crude warhead--
or what kind of, you know, a kiloton warhead is necessary? And 
discuss the enhanced warhead terminology, so that we can 
understand what needs--you know, is this regular atomic 
warheads? Does this have to be something on the size of a W88? 
Or give us a picture here of what we are really facing and what 
Iran's potential capability might be against us.
    Dr. Graham. Since one of the members of the commission, Dr. 
Foster, was the director of the Livermore National Laboratory 
and, as far as I know, still has the most advanced nuclear 
weapon design that we use for one of the types of--one of the 
aspects of the nuclear weapon, and that is after probably 
approaching 30 or more years, I would like to ask him to 
address the nuclear weapon question. Oh, he left? He had 
another meeting to go to, unfortunately. Okay. I will try to 
fill in, but not as well as Dr. Foster.
    I will tell you what I have learned from him in this 
process, that you can--you will get potentially catastrophic 
EMP from even a first-generation nuclear weapon. It doesn't 
have to be optimized for this purpose. So, any nuclear weapon 
that can be obtained and put on a missile, which means that the 
weight in the one-ton or less range for most of the missiles we 
have talked about, would produce the EMP effects we described. 
There are nuclear weapon designs that we know about and that 
the Russians clearly know about, and possibly others know 
about, which produce stronger and stronger EMP fields. And in 
all these cases, the weapon yield itself doesn't have to be 
more than 10 kilotons or so. It doesn't take a very large 
nuclear weapon or a very large yield to produce these effects. 
They are produced by the gamma rays that come out. They come 
out very quickly, and it is the first part of the nuclear 
detonation process.
    So, any nuclear weapon in the hands of potential 
adversaries would be bad news for us, in this regard.
    Mr. Franks. Well, thank you, sir.
    And thank you, Mr. Chairman. I am hoping that the committee 
recognizes that the coincidence of terrorism and technologies, 
such as we are discussing today, represents a grave threat to 
the human family.
    Mr. Spratt [presiding]. Mr. Taylor.
    Mr. Taylor. Thank you, Dr. Graham. A couple of things--and 
I very much appreciate what your committee is doing--a couple 
of quick questions, and I know they won't be quick answers.
    I am a proponent of a nuclear Navy to protect--particularly 
more nuclear-powered ships. I would be curious if your 
commission has looked at our surface fleet and determined 
whether or not a nuclear-powered ship was any more or less 
susceptible to an EMP than a conventionally powered ship.
    The second thing I would like you to comment on is there 
have been recent articles that strongly suggest that part of 
the traumatic brain injuries that are coming out of the 
conflicts in Iraq and Afghanistan might have been caused by the 
effects of EMP on the brain, in addition to the shock waves. I 
was wondering--and I have only read this article this week, and 
so I don't know if your commission had the time to even look at 
that and if there has been any talk amongst your commission, 
since you are the experts, of how we might counter that for the 
individual soldier.
    Last, without talking out of school, I think it is fair to 
say that several contractors are looking at ways of having a 
handheld-directed EMP for the purpose of disabling fast boats 
that are running drugs or, possibly, a vehicle-borne IED that 
is coming at you. So, if there are contractors out there 
looking at them for good purposes to protect Americans, it is a 
pretty safe bet that somewhere in the world, someone is also 
looking at the same thing, which could, for example, fry the 
electricity going to Wall Street and, certainly, cause a great 
deal of disruption, or you can think of any number of 
scenarios. I was wondering if you could touch on those 
subjects, then, that I just posed to you.
    Dr. Graham. Let me take them in reverse order. As a 
commission, we focused on the nuclear EMP problem, which is a 
very wide-area problem. We did note that devices can be made, 
and don't require huge power supplies to operate, which can 
produce intense electromagnetic fields over very small regions; 
but they are regions of the order of tens of feet to maybe 
hundreds of feet, but not miles and hundreds and thousands of 
miles, like the EMP. So, for local effects, it is a possible 
course to pursue, certainly.
    As far as the brain injuries goes----
    Mr. Taylor. Sir, if I may, on a one-by-one basis, are you 
proposing safeguards against something like that, a handheld-
directed EMP going after America's economic infrastructure on 
Wall Street? Are you proposing safeguards? And if you are, 
which agency of our Nation should be taking the lead on that?
    Dr. Graham. We have not addressed that directly, because, 
in part, we focused on the high-altitude nuclear problem, and, 
in part, it seems to us that that was an issue related to 
physical security, but one which is in addition to the normal 
threat of truck bombs or bombs or rocket-propelled grenades or 
things of that sort. While the range of the EMP would be--of 
the conventionally generated EMP would be comparable to these 
other threats, the effects and the protection against it would 
be different.
    And so, for example, electromagnetic shielding would be an 
important aspect of that, but we have not gone down that path 
in our own studies. We think it is a good issue for high-
priority facilities to follow. But we did note that in terms of 
critical infrastructures, even the best of them fail. The 
trouble is they fail at single-point failures, and the 
operators are good at circumventing single-point failures. What 
they don't practice and don't know how to address is when they 
have multiple failures over a wide area nearly simultaneously, 
and that is the problem that the nuclear EMP brings to bear.
    Mr. Taylor. For traumatic brain injuries, did you look into 
that?
    Dr. Graham. On that, we did not look into that, and I have 
no information on that, so I am afraid I can't be of any help.
    Mr. Taylor. Are nuclear-powered surface ships being any 
more or less protected?
    Dr. Graham. I have looked at the hardening and protection 
of ships at various times over the last several decades, and my 
impression is that protecting nuclear-powered ships is 
certainly no more difficult than protecting conventionally 
powered ships.
    Mr. Taylor. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. I thank the gentleman.
    Mr. Saxton.
    Mr. Saxton. Thank you.
    Dr. Graham, your description of the threat is certainly 
sobering and, I am sure, accurate. And I am just curious to 
know whether you have--I am sure you have given thought to what 
our defenses against an EMP laydown might be from--back to the 
nuclear device. I would think we would want to look at a robust 
missile defense system, and I would also think that the 
midcourse or boost phase would be the place that you would want 
to be capable, relative to this EMP threat, rather than the 
phase that we are in now that we can accurately use PATRIOT and 
the aero-type defenses. Would you comment for us on that?
    Dr. Graham. Yes, Mr. Saxton. First, there is no magic 
bullet to solving the EMP problem, so I believe we need to look 
at a large number of steps we can take and look for the most 
cost-effective approach with each of them and try to combine 
them in a useful manner.
    Certainly, one of the things we can do is look to the 
ballistic missile defense capabilities that we have developed 
and deployed. For very long-range missiles that might come over 
the U.S., the ground-based missile defense could have an 
effective role in intercepting the carrier missile before the 
bomb goes off and as early as possible. And second, even for 
shorter-range missiles such as the Scuds or the Shahab-3s or 
other short-range missiles to medium-range missiles that could 
be fired off our shores, we have a large fleet of Aegis ships, 
and several of those have the Standard Missile-3, which is an 
interceptor missile designed to destroy offensive missiles. And 
by being able to move those ships around and turn on the radars 
from time to time and see what is going on offshore, we could 
at least increase the uncertainty that any potential attacker 
would have in being able to successfully launch an offshore, 
ship-based attack.
    That system has proven to be extremely reliable and 
effective. I think the last interceptor did shoot down a 
satellite, in fact, but it can shoot down things at 
considerably lower altitudes than that.
    So, using our missile defense assets both to deter, 
dissuade, and, if necessary, intercept missiles going over the 
U.S. and over our forces overseas--Taiwan Strait, for example, 
Persian Gulf, other places--could be an extremely useful 
approach.
    Mr. Saxton. Thank you, Mr. Chairman.
    The Chairman. Mr. Johnson, from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Graham, I would ask you to give us your opinion on what 
would be the level of knowledge generally of state and local 
law enforcement agencies about the EMP phenomenon.
    Dr. Graham. It varies over a wide range of knowledge, from 
no familiarity at all to a few states that have taken this very 
seriously and are making plans of their own. In particular, the 
State of Maryland and the State of Alaska have worked with 
their National Guard units, their adjutants general in their 
states, their legislatures, and their government to begin 
implementing plans to understand the effects of an EMP attack 
and to integrate it in the state's emergency planning 
functions, and we are trying to work with other states, with 
the adjutants general and others, to expand the state 
knowledge.
    And let me ask General Lawson, who is here, if he has any 
other comments on the state-related activities.
    Mr. Johnson. And if you could perhaps speak into the 
microphone.
    General Lawson. I think we have discussed, in front of the 
adjutant generals and the other state emergency action 
officers, in some detail, the kinds of activities that should 
be included in the emergency actions training programs for 
state police, for state firemen, for other emergency 
participants. We have presented, three times, to Homeland 
Security our thoughts on some of these preparation activities, 
and, quite candidly, I would hope that they get as much 
publicity as possible, because that is a part of what many of 
the commissioners think is a vital portion of our response to 
this threat, and that being a clear understanding that we, as a 
Nation, are attempting to develop responses that will minimize 
the capability itself. We haven't been as successful in getting 
that prioritized as highly as it should be amongst not only all 
of the states, but even at the national level.
    I think one other action--and it is not a part of the 
question--but one other action that is appropriate to mention: 
we have had a continuing dialogue with the utilities and with 
the Federal Emergency Regulatory Commission on developing a set 
of procedures that would begin to look at the phase-out of 
certain portions of the electrical grid--in their timely phase-
out--to bring in new equipment at those scheduled phase-outs 
that are more protected to this emergency.
    I think, from your standpoint, the one thing that I would 
mention that is important for the Armed Services Committee is 
to understand that all of your bases and all of your military 
forces, all of them have a great amount of their power that 
comes through the national grid. All of them have emergency 
backups, but those backups are very short-lived. And so, what 
happens to that national grid vitally influences all of our 
Armed Forces. And that overlap between Homeland Security and 
the Defense Department needs to be examined very carefully in 
this particular area, and that is an area where the committee 
could put a little pressure on both sides of that coin, to 
improve that emergency capability for the Armed Forces.
    Mr. Johnson. Thank you. I will yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Dr. Graham, General Lawson, for your 
participation in the entire commission. And I greatly 
appreciate Dr. Roscoe Bartlett bringing this issue to our 
attention in a very thoughtful way, raising this issue with the 
American people.
    As we have discussed the effect, possibly, on the United 
States, what would be the effect, or how can we reduce the 
effect, if there was an EMP attack over the theater of Iraq or 
Afghanistan?
    Dr. Graham. We have worried about that and tried to address 
it, to some extent. It seems to us the first thing we need to 
do is review the status of our military forces--not just the 
strategic forces, but in the theaters you describe. We also get 
into the general purpose forces. They are a much more diverse 
set of systems. And we think that rather than try to harden 
everything in that set of systems, having a few key elements to 
maintain command, control, communications, and having a plan to 
replace items which are failed by the EMP and bring in 
additional forces and additional systems rapidly, would 
probably make more sense. That is one of the items being 
addressed in the Defense Department's analysis, and the final 
go at this, we would defer to them. But we think it is 
important that the general purpose forces and the theater 
forces not be ignored in this process.
    Mr. Wilson. And as we think of protection for the American 
people, recovery in the event of an EMP attack--I appreciate 
Congressman Spratt raised the issue--what can we do on this 
committee? What can DOD do? I appreciate Congressman Johnson 
raising the issue of the first responders and the National 
Guard.
    As we look ahead, what can individual families do, in a 
prudent way, to protect themselves?
    Dr. Graham. I have worked on EMP for an embarrassingly long 
time, Mr. Wilson--over 45 years. About a decade ago, my house 
in Virginia was hit by lightning, and I lost several pieces of 
electronics. This is almost as bad as an electrical engineer 
being electrocuted. It is considered bad form in the 
profession, and I shouldn't have let that happen.
    You can provide local terminal protection for electronics 
devices. The problem is if there is no electric power, most of 
those devices aren't going to work anyway. More than that--and 
myself, I have my own electric generator that I keep 
disconnected from everything, so it doesn't look like it is 
attached to antennas. Any conductor would be an antenna. I try 
to keep enough food and water around to go for several weeks 
for myself and my family. And those are at least starting steps 
that can be taken. But to tell you the truth, we have not 
focused on the individual response to this as much as we have 
to the government and industry response. But I think it is a 
good question, and we will go back and reflect on that.
    Mr. Wilson. And indeed, I represent coastal areas like 
Hilton Head Island, where a number of people would have 
generators. And so, inadvertently, we have significant 
communities across the United States that have had power 
interruptions or threats of power interruption due to natural 
disturbances.
    It was brought up about vehicles, cars, and trucks. Will 
they operate, or are they permanently inoperable?
    Dr. Graham. There is some experience with both those things 
happening. We tested about 50 vehicles. About 10 of them--and 
we only tested them to 25 kilovolts per meter, which is the 
kind of threat you would get from more ordinary designs of 
nuclear weapons--about 10 percent of them stopped running when 
we tested them at that level. All but one or two of them could 
be restarted by just switching off the power and then switching 
on the key again. The computer basically stops the car, but it 
can be reset by turning off the power. There were one or two of 
them that actually had computer chip failures in the vehicle 
and had to be towed back to the dealership to have the chips 
replaced.
    It may not sound too bad, but if you think about what 
happens to the traffic, say, in the D.C. area on a given 
morning, when there are 3 or 4 accidents, you can imagine 10 
percent of the vehicles on the road suddenly not running 
anymore. I suspect that would lead to a large number of further 
accidents and incidents. And so it would be a while before 
those vehicles would have good transportation access again.
    But leaving vehicles turned off, parked, is about the best 
you can do with cars you already have, and encouraging Detroit 
to continue to make cars so they are not vulnerable to the 
transients is another good step.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, Dr. Graham. And to all of the team, great work. 
Very distinguished panel.
    I want to pick up where Mr. Wilson just left off, and that 
is with vehicles. I am reading in your report, quote, ``Police 
services will be stretched extremely thin because of a 
combination of factors. Police will be called on to assist 
rescue workers removing people from immediate dangers.'' 
Failures of automobiles and traffic control systems with the 
intended massive traffic jams was what you were describing 
there. If you had a 10 percent failure in Washington, D.C., or 
1 percent failure in Washington, D.C., you would have a mess. 
But it seems also that you can have your ambulances and the 
fire trucks and the response vehicles themselves would not 
function. And in your example of the cases where you had the 
computer chip--which is everywhere now in every modern 
vehicle--no longer working, you towed it back to the dealer and 
had a new one put in. But in the scenario we are talking about, 
I am trying to envision how that would work--that you tow it 
back to the dealer, and all the chips in the dealership are 
destroyed.
    So, if we had an EMP event of the magnitude that Mr. 
Bartlett was talking about and you were talking about earlier, 
significant explosion over Kansas or something like that, isn't 
it possible that you would have not just stuck elevators, but 
you would have your ability to respond at all, not just because 
you couldn't talk, but because you couldn't drive?
    Dr. Graham. Yes. I think that is the bottom line, Mr. 
Kline. On the one hand, the chips that are still in the part 
bins, if they are not connected to anything else, would 
probably survive. Wires, circuits, pipes--anything conducting 
connected to an electrical or electronic device looks like an 
antenna to an EMP. It conducts the power into the device. That 
is why I keep the portable generator I have disconnected from 
everything else at my home.
    But there are many things that are connected to wires, et 
cetera, that have to be--we did test traffic control device--
traffic signals, and what we found is those little buttons you 
push to get the signal to walk across the street are wonderful 
antennas for EMP and take a destructive level of signal right 
into the traffic control unit and burn it out.
    During the 2003 blackout, the traffic in Manhattan became a 
gridlock because of traffic signals basically failing from lack 
of power. There was a telecommunications--it is called a 
telecommunications hotel, a big telecommunications telephone 
switching station that had four hours worth of battery power on 
hand. The phone company had a plan to take a portable generator 
and connect it to that telephone switching center to keep it 
going. It had to get that generator halfway across Manhattan, 
and it was not able to do so in four hours, and the telephone 
switching system went down. So, that is the kind of problem you 
are going to see.
    Mr. Kline. It is a pretty tough scenario.
    Let me follow up again with Mr. Wilson's thought about the 
general purpose forces. I know it is used in Afghanistan and 
Iraq, but they ride around in vehicles with chips, as well. So, 
presumably, it is not just their command and control, but you 
could have the vehicles stop. This is the Armed Services 
Committee. Are there things that we should be pressing? Is 
there a way to harden that in the vehicle? Or should the 
Pentagon be making sure there are plenty of chips unconnected, 
you know, back in the warehouse, so they can be replaced 
relatively quickly? I can see entire battalions, brigades 
literally coming to a halt.
    Dr. Graham. I think having adequate spares in the area 
would be very valuable and not hugely expensive, but, also, the 
vehicles are often designed to be able to withstand a fairly 
high level of EMP--the military vehicles, the Humvees, the 
Bradleys, M-1 tanks, and so on. However, normally, they are 
designed to be protected when they are all closed up or 
``buttoned up,'' as the Army says. We have noticed they are 
generally operated not buttoned up, with things open on them. 
And so we would encourage the service to do the test. And when 
they retrofit these vehicles, which they are doing a lot now on 
the reset programs--refurbishing them, to put enough protection 
in the vehicles, shielding on the wire harnesses, for example--
that they can continue to operate even when they are not 
buttoned up.
    Mr. Kline. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Before I call on Mr. Taylor, let me ask you, 
Dr. Graham, have you thought about--should the unthinkable 
happen--communications? What would be left communication-wise? 
Who could communicate with whom and over what distance and in 
what manner?
    Dr. Graham. We have looked at the commercial 
telecommunications system, and we think a lot of the calls in 
progress or being made at the time of the event would stop. 
Some of the telecommunications equipment would continue, at 
least as long as its power is available. But we can't predict 
where the nodes would be still functional and where they 
wouldn't.
    To get around this problem several decades ago, the idea of 
diverse routing of packet switch networks was invented as a 
concept. It was actually invented as a Cold War concept, to 
deal with communications nodes being destroyed by direct 
attack, in fact. And so, at least, my estimate is that the 
packet switching network that provides the carrier for the 
Internet would be the most likely way to sustain some kind of 
connectivity. But the individual nodes themselves are not, in 
large part, not designed to be hardened to EMP. So, it would 
only be a chance that there was a route through the system that 
would go from you to point B to carry the message.
    There is, also, for the military forces, the Milstar 
satellite system. And perhaps I could ask Dr. Soper, who worked 
on that and saved it from cancellation at least twice, to talk 
about that as a continuing military communications capability. 
Take my seat.
    Mr. Soper. Thank you, Dr. Graham.
    I am Gordon Soper. I spent most of my life and career in 
the Department of Defense. And the question relates to its 
command and control of our military forces and perhaps, in 
particular, our nuclear forces.
    We have paid a great deal of attention to that. After all, 
our nuclear weapons are a linchpin of our national security, 
and it has been uppermost in the Nation's mind to make sure 
that those weapons are command and controlled through all 
levels of conflict. And to that end, the Department of Defense 
has developed a set of standards--in particular the MIL-STD-
188, 125 series, the MIL-STD-1269(b)--don't want to get into 
the details--to direct those people that are responsible for 
our command and control of nuclear weapons know-how to protect 
against this threat. And in its basic form, it is really very 
simple. It tends to be a shielded volume with a minimum number 
of penetrations, and those penetrations that you can't avoid, 
you protect. And you test it over and over again. And the most 
boring part, but, perhaps, the most important, is that you 
maintain that protection over the life cycle of the system, and 
that just requires attention to detail, not poking holes in the 
shield, not disconnecting things.
    Fiber optics has been a help in this process. I hope that 
that has helped address the problem. The Milstar system, the 
Milstar satellite system, was designed to be hardened or 
survivable against direct radiation--the X-rays and gamma rays 
that come out of the weapons and proceed unabated through the 
vacuum of space. And as Dr. Graham correctly pointed out, one 
of the more important issues, from an EMP perspective, is not 
necessarily the satellites, but, rather, the ground systems 
that collect the information from the satellites and distribute 
them to the places they need to go.
    Hope that addressed your question.
    The Chairman. Thank you so much.
    Mr. Taylor.
    Mr. Taylor. Thank you again, Mr. Chairman, for holding this 
committee, and I want to thank again my colleague, Mr. 
Bartlett, for making everyone on this committee aware of a very 
real threat. I want to thank the panel.
    Dr. Graham, a couple of things. I was very much aware that 
when it came to body armor, up-armored Humvees, improvised 
explosive device (IED) jammers, and, most recently, Mine 
Resistant Ambush Protected vehicles, it really wasn't the DOD 
coming to Congress, saying, ``We need these things.'' It was 
because of different circumstances Congress telling the DOD, 
``You are not doing enough.'' And I don't say that happily, but 
it is a fact.
    In this instance, even though you are going to make a 
report to the DOD, based on those four scenarios, I don't have 
a high degree of confidence that, for whatever reasons, they 
are going to come to us and say, ``This is what we need.'' So, 
what I would ask of you as a part of your final report is I 
would hope that a part of your final report is a memo to 
Congress: ``This is what you, members of the Appropriations 
Committee, members of the Armed Services Committee, need to be 
doing.''
    The second thing, I thought you touched on something very 
appropriate. I happen to have lived down where Katrina hit, saw 
what life without electricity was like for a few weeks. It 
wasn't pleasant. I was very much interested in your tip to 
leave your generator unattached to the home. I would think, for 
the average citizen who is trying to be prudent and is trying 
to protect themselves from something like this, which is a very 
real threat--although a horrible threat, but a very real 
threat--that you would do this Nation a great service if a 
similar publication was made available or a checklist of what 
you can do, as an individual, to try to protect yourself, 
should something like this happen. I think that would be doing 
a great service, and then get that into the hands of either the 
Department of Homeland Security or the Northern Command or 
someone, at least, for those folks who would choose to do so, 
at least be made aware of what an individual can do to try to 
take some steps to protect themselves.
    And again, I would welcome your thoughts on this. This is a 
request that I am making to you. I would hope that the 
committee would back that up, as far as when it comes to what 
should this committee be doing, as far as authorizing funds, 
and what should the appropriators be doing, as far as 
appropriating funds to address the threat to our Nation.
    Dr. Graham. Well, thank you, Mr. Taylor. I think that is an 
excellent suggestion, and I think we could put out something 
which could be of use both to individuals, homeowners, but also 
to state and local authorities and their emergency facilities 
and so on; and we will look to see what is already available 
and proceed from there.
    As far as what Congress can do going forward, this 
commission is a creature of the Congress. In fact, we follow 
the same rules other congressional agencies do, and we owe our 
existence to you. I am struggling with this, because it pains 
me a little bit to say it, but as a matter of fact, there is a 
provision in the current defense authorization bill that this 
committee has put forward which would extend this commission 
into the future for some few years. I would say that, in my 
view, Congress and--through the Congress, the creation of this 
committee has been the principal forcing function on the 
Administration to take this issue seriously, and so, the fact 
that you are proposing to move this forward could have a good 
effect, in that regard.
    We all serve pro bono. I live on the West Coast. I like to 
say this is fun, but it isn't. Nonetheless, I am sure there 
are, among the commissioners, other members, people who would 
be willing to continue to serve if, in the judgment of the 
Congress, that is a useful function.
    Mr. Taylor. Thank you very much, sir.
    The Chairman. Thank you very much. It is always nice to be 
reminded that you are our creature, and the champion, of 
course, on this issue is Roscoe Bartlett, on whom I now call.
    Mr. Bartlett. Thank you very much. I really want to express 
my appreciation to the chairman, for calling this hearing, and 
to the commission. As my colleague Mr. McHugh noted, a lot of 
commissions have sat before us. None of them, I think, have 
been as high of quality as this commission. I am really 
impressed.
    I just would like a few quick questions, so that we can get 
some things on the record. When you were talking about the 
selective survivability of automobiles, that was at 25 
kilovolts per meter. At 100 kilovolts per meter, they are 
probably all gone.
    Dr. Graham. We don't know that for a fact. But the people 
from whom we got the automobiles wanted them back and in 
working order, so we didn't go higher than that, because we 
didn't have the budget to buy that many automobiles, in case 
they all failed.
    I think, in the future, it would be worth Department of 
Homeland Security carrying out a more thorough set of tests 
and, perhaps, using some of their own fleet to see what would 
happen at higher levels. If I had to guess, I would say by the 
time you got to--certainly to 100 and possibly to 50 kilovolts 
per meter, you would have quite a few more failures.
    Mr. Bartlett. Thank you.
    Our commercial aircraft are not hardened. So the 
presumption would be all of those that are line of sight would 
fall out of the sky?
    Dr. Graham. They are not specifically hardened to EMP. They 
are tested against lightning strikes, and, in fact, they 
experience lightning strikes, as I recall, an average of 
something like once a year. So, they do have a reasonably good 
level of EMP protection, as far as flight safety is concerned, 
and that means, basically, land at the nearest airport after 
you are hit.
    Now, EMP contains some electromagnetic frequencies that are 
not in lightning strikes, so it is no guarantee that the 
airplanes will keep working, and as you know, the airplanes are 
largely software-controlled today--both the engines and the 
flight controls themselves--so we would probably lose some 
aircraft. But we would have some that would continue to fly as 
well.
    Mr. Bartlett. It is my understanding that the usual surge 
protector does not protect against EMP, because the rise time 
is in nanoseconds, and it is through the surge protector before 
it sees it and responds.
    Dr. Graham. It depends on the specific surge protector. For 
example, those designed for lightning only don't have to 
respond fast enough to protect against EMP. Some others are 
fast enough to do that.
    Mr. Bartlett. The usual surge protector that protects 
against lightning probably won't protect you against EMP.
    Dr. Graham. Used by whom?
    Mr. Bartlett. The usual surge protector to protect you 
against lightning probably will not protect you against EMP?
    Dr. Graham. It will not necessarily protect you against 
EMP. When I buy these little surge protection strips for my 
computers and things of that sort, they claim to work to down 
to a nanosecond, but I have not seen them tested to that range 
yet against an EMP-like threat.
    Mr. Bartlett. Satellite vulnerability, because it is so 
expensive to put weight in orbit--my understanding is that our 
satellites are usually lower--but satellites are the softest 
part of this chain--that we probably would lose all of those 
that were line of sight, close in, from prompt effects, and the 
others, as you noted, would decay quickly because of pumped-up 
Van Allen Belts?
    Dr. Graham. Yes. Unless the satellite had been specifically 
designed to be hardened against radiation, including the 
trapped radiation that would be pumped into the Van Allen 
Belts, they would all fail within a week or so.
    However, many of the ground stations would fail essentially 
instantaneously, and so we would be out of communication with 
the satellite even more quickly than the failure of the 
satellite suggests.
    Mr. Bartlett. Some 90-odd percent of all of our military 
communications moves over commercial links, satellite links, is 
my understanding.
    Dr. Graham. Let me consult my colleagues here.
    Soper, does that sound about right?
    Mr. Soper. Certainly, the military communications that are 
not critical--I mean, laundry lists and things like that--I 
don't mean to make light of it--but many noncritical circuits 
do go over commercial assets.
    Dr. Graham. The most critical piece, which we view as 
strategic command and control, tend to have their own circuits 
and tend to, in the final analysis, use Milstar as a protected 
system. But that is--you are getting down to a very small-sized 
communication channel by the time you get down to that.
    Mr. Bartlett. You mentioned the asymmetric nature of this 
threat and how we were more vulnerable because we are more 
sophisticated. If North Korea were to launch a nuclear weapon 
straight up and detonate it, and that would have an EMP effect 
on them and on us, without that, our 30-odd thousand people 
there are probably a match for their million on the other side; 
is that not correct? We think so.
    Dr. Graham. Let us see. I think--several things come to 
mind. One is that the worst EMP in the northern hemisphere 
tends to the south of the explosion point, and that is where 
South Korea is, with respect to North Korea. So, you have 
picked a particularly damaging scenario for the assets in South 
Korea. Of course, to meet the North Koreans, we have assets in 
Korea. The Koreans, South Koreans, have a larger military than 
we do there. And then, we have assets in Japan, Guam, and other 
places that we might bring to bear. Of course, the North 
Koreans know about all those assets.
    But it would certainly cause a serious disruption if they 
launched the attack you described, and they could extend that 
further if they wished.
    Mr. Bartlett. They are not very sophisticated. They would 
be much less affected by this attack than our soldiers. They 
would be relatively all the same size after this attack, or 
relatively close to it.
    Dr. Graham. I don't have detailed information on their 
communication systems, but certainly, their military systems 
tend to be much more primitive than ours and, therefore, would 
be less affected by this.
    Mr. Bartlett. Your generator that is not plugged in would 
probably not survive a 50 to 100 kilowatt----
    Dr. Graham. Fifty to 100 kilovolt per meter.
    Probably, it would be okay, as long as I didn't attach any 
wire to it. It is the need for something that looks, to EMP, 
like an antenna to get in. That would be the most formidable 
effect. But somewhere around 100 kilovolts per meter, it has 
enough wires inside it that it would start being affected.
    Mr. Bartlett. Yeah. In closing, I would just like to 
reemphasize the discussion that you previously had, relative to 
individual and family response. I had been concerned that we 
are paying a little or no attention to the old civil defense. I 
am a child of the Depression, and I remember the Cold War very 
well, and I remember everywhere there was a fallout shelter. 
You couldn't go to any public building without having little 
brochures there to tell you what to do, and every family knew 
what they ought to be stockpiling and how they ought to behave 
in an event like this.
    I am very concerned that if we as individuals and families 
do not know what to do and are not prepared, that every one of 
us then becomes a ward of the state. And are we not enormously 
stronger if we are individually and family-wise self-sufficient 
during an emergency like that?
    Dr. Graham. Yes, Mr. Bartlett. I think there are several 
reasons--several possible threats, both man-made and natural, 
that could affect us. And having an ability to function in a 
self-reliant manner for some period of time would benefit us 
all.
    Mr. Bartlett. Do you think that you could be effective in 
encouraging our Homeland Security people to become more 
aggressive in this civil defense role?
    Dr. Graham. I met with Senator Lieberman yesterday, as the 
chairman of the Homeland Security Committee in the other House 
of Congress, and he was very interested in this subject and 
agreed to consider it as part of his purview for Homeland 
Security. So, we will try to continue to work with the Homeland 
Security functions both in the Congress and the Administration 
and encourage them to take useful steps.
    Mr. Bartlett. I would just like to note, Mr. Chairman, that 
if you are preparing for something like this in advance, say, 
years ahead, you are now a patriot, you are stimulating the 
economy, but if you do it hours before it happens, now you are 
a hoarder, and you are doing exactly the same thing; and timing 
is very critical there now, isn't it?
    Thank you very much.
    The Chairman. Mr. Bartlett, thank you.
    And, Dr. Graham, thank you, as well as members of your 
commission.
    Oh, excuse me. Mr. Saxton has another question.
    Mr. Saxton. I just wanted to take a minute to thank you for 
being here and to ask you if--Mr. Taylor mentioned something--
actually, Mr. Taylor and I were talking about this earlier this 
morning. I have an article here, which Mr. Taylor made 
reference to, and it brings up a subject which I think is 
extremely interesting and important.
    It talks about brain injuries that result from IEDs that 
Mr. Taylor also mentioned. And this article suggests that brain 
injuries that have occurred in Iraq seem to be different than 
brain injuries that have occurred over the years in automobile 
accidents and other types of happenings.
    And EMP is one of the areas that the Defense Advanced 
Research Projects Agency (DARPA) is currently looking at in 
terms of its potential effect, with regard to brain injuries. I 
will just read this one paragraph to you. I found it very 
interesting.
    ``Ling's team''--that is the scientist--``will soon begin 
studying other potential causes of brain injury, such as 
electromagnetic pulses. If EMP from a blast is powerful enough, 
it can interfere with nearby electronic devices. `The brain is 
an electronic organ,' says Ling. `If an EMP pulse can take out 
a radio, why not short-circuit a brain?' ''
    So, I guess what I would like to just ask or suggest is 
that, maybe, inasmuch as our authorization bill extends your 
commission, maybe it would be a good idea for DARPA and your 
commission to work together on this, as much as you have got 
all this experience with studying this subject. And I am sure 
you would be of great benefit to Dr. Ling and his team. I just 
mention this to you, and I will certainly see you get a copy of 
this article as a starting point.
    Dr. Graham. Thank you.
    While it is not in our mandate today, it sounds very 
interesting. I would note that I also serve on a National 
Academy Board called a Board on Army Science and Technology, 
which--and the National Academy has the resources of the 
National Institute of Medicine as well as the National Academy 
of Sciences, the National Academy of Engineering, so it can 
bring a very diverse set of talents together. And this sounds 
like the kind of question that might be directed to the 
National Academies and to the Board on Army Science and 
Technology, to work with the scientists and the government.
    Mr. Saxton. Thank you.
    The Chairman. Again, Dr. Graham, thank you and your 
commission for your excellent work, not just today, for 
appearing, but for the work that you have done through the 
months on the commission. And we are most appreciative, and we 
will be in touch with you and the commission again.
    If there are no further questions, the meeting is 
adjourned. Thank you.
    Dr. Graham. Thank you, Mr. Chairman.
    [Whereupon, at 11:58 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 10, 2008

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 10, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5133.001
    
    [GRAPHIC] [TIFF OMITTED] T5133.002
    
    [GRAPHIC] [TIFF OMITTED] T5133.003
    
    [GRAPHIC] [TIFF OMITTED] T5133.004
    
    [GRAPHIC] [TIFF OMITTED] T5133.005
    
    [GRAPHIC] [TIFF OMITTED] T5133.006
    
    [GRAPHIC] [TIFF OMITTED] T5133.007
    
    [GRAPHIC] [TIFF OMITTED] T5133.008
    
    [GRAPHIC] [TIFF OMITTED] T5133.009
    
                                  <all>

</pre></body></html>
